U.S. Election Assistance Commission,
      Office of Inspector General




            Semiannual Report
               For the Period
April 1, 2006 Through September 30, 2006
                         U.S. ELECTION ASSISTANCE COMMISSION
                                  OFFICE OF INSPECTOR GENERAL
                               1225 New York Ave. NW - Suite 1100
                                      Washington, DC 20005




                                                                     November 30, 2006



The Honorable Paul DeGregorio
Chairman
U.S. Election Assistance Commission
1225 New York Avenue NW- Suite 1100
Washington, D.C. 20005

Dear Mr. Chairman:

        I am please to submit the Semiannual Report to the Congress on the activities and
accomplishments of the Office of Inspector General for the period April 1, 2006 through
September 30, 2006. The report provides descriptions of our audits, evaluations and
investigations performed during the past six months. The report is submitted in
accordance with section 5 of the Inspector General Act of 1978 (Public Law 95-452, as
amended). The Act requires that you transmit this report along with any comments you
wish to make, to the appropriate Congressional committees and subcommittees within 30
days.

       The Office of Inspector General sincerely appreciates the assistance and
cooperation extended to its staff by all Election Assistance Commission personnel.

                                                    Sincerely,



                                                    Curtis W. Crider
                                                    Inspector General
Table of Contents

Election Assistance Commission Profile                      1

Office of Inspector General Operations                      2

Summary of Work Completed                                   3

Appendices

   A. Office of Inspector General Reports Issued            6
   B. Office of Inspector General Reports with Questioned   7
        Costs
   C. Reporting Requirements of the Inspector General Act   8
   D Duties of the Election Assistance Commission           9
EAC Profile

                          Congress established the Election Assistance Commission
                          (EAC) with the passage of the Help America Vote Act
                          (HAVA) in October 2002. EAC became operational in fiscal
                          year 2004.

                          EAC’s principle responsibilities are to:

EAC administers $3            •   Administer funds that HAVA authorized for states
billion of Federal                to improve the administration of Federal elections,
payments to states for            to replace-punch card and lever-action voting
the improvement of                machines, and to meet the election technology and
Federal elections                 other administrative requirements of HAVA. To
                                  date, states have received Federal payments of
                                  approximately $3 billion.

                              •   Serve as a national clearinghouse on matters
                                  concerning the administration of elections under
                                  Federal law; and provide outreach to state and local
                                  election officials.

                              •   Develop and update standards on voting systems
                                  and provide guidance on subjects such as statewide
                                  voter registrations systems and provisional ballots
                                  critical to the implementation of HAVA.

                              •   Implement a system to accredit laboratories that test
                                  voting systems and to certify, decertify, and
                                  recertify voting system software and hardware
                                  against standards.

EAC employed 23           In fiscal year 2006, EAC had a budget of about $14.1
people and operated on    million and was authorized 23 full-time personnel. Major
a $14 million budget in   expenditures were for salaries and related benefits ($2.45
fiscal year 2006          million); research and development ($4.8 million),
                          including the transfer of funds to the National Institute of
                          Standards and Technology; and other contracted services
                          for audits, financial and information technology support,
                          assistance for the accreditation and testing program, and
                          website management.

                          See Appendix D for a full list of EAC duties.




                                           1
OIG Operations

                           HAVA added the EAC to the list of designated Federal
                           entities covered by the Inspector General Act (IG) of 1978
                           (Public Law 95-452, as amended). According to the IG Act,
                           inspectors general:

                              •   Conduct and supervise internal reviews, audits and
                                  evaluations of agency programs and operations;

                              •   Provide leadership and coordination, and recommend
                                  actions to management, which: (1) promote economy,
                                  efficiency, and effectiveness in agency programs and
                                  operations; and (2) prevent and detect fraud, waste,
                                  abuse, and mismanagement of government resources;
                                  and

                              •   Keep the agency head, management, and the Congress
                                  fully informed regarding problems and deficiencies,
                                  and the progress of corrective action.

During fiscal year 2006,   On August 9, 2005, EAC authorized the appointment of an
EAC OIG focused its        Acting Inspector General to develop policies, procedures and
efforts on states          programs necessary to establish an Office of Inspector
expenditure of HAVA        General (OIG). On August 24, 2006, EAC selected Mr.
funds.                     Curtis Crider as its Inspector General.

                           The EAC OIG is currently staffed with one permanent full-
                           time position (the Inspector General) and two contract
                           auditors from the U.S. Department of the Interior, OIG. In
                           addition, the EAC OIG also contracted with an independent
                           public accounting firm for additional audit support. Finally,
                           the EAC OIG signed a Memorandum of Understanding with
                           the U.S.’s General Services Administration (GSA), OIG,
                           whereby the GSA’s OIG provides investigative coverage for
                           the EAC OIG on a reimbursable as needed basis. The EAC’s
                           Office of General Counsel provides the OIG with legal
                           services. During fiscal year 2006, EAC OIG focused its
                           efforts on state expenditure of HAVA funds.




                                           2
Summary of Work Completed by the EAC OIG

                        During the six-month period ending September 30, 2006, the
                        OIG completed two reviews.

Reviews of New Jersey   The objective of the reviews were to determine whether the
and Georgia             States (1) managed HAVA funds in accordance with the
administration of       Uniform Administrative Requirements for Grants and
HAVA funds              Cooperative Agreements with State and Local Governments
                        (the Common Rule) and the Cost Principles for State, Local,
                        and Indian Tribal Governments (Office of Management and
                        Budget Circular A-87) and (2) complied with HAVA
                        requirements for maintaining the election fund and sustaining
                        the State’s level of expenditures for elections.

                        Georgia

                        We found that Georgia administered its HAVA funds in
                        accordance the Common Rule and OMB Circular A-87. We
                        also determined that Georgia complied with the HAVA
                        requirement for maintaining the State’s level of expenditures
                        for elections but did not fully comply with the requirement for
                        the establishment of an election fund. Because Georgia had
                        expended most of its HAVA funds and had spent in excess
                        of its matching requirement, the EAC indicated that it was not
                        now necessary for Georgia to set up an election fund in the
                        state treasury.

                        New Jersey

                        We found that New Jersey needed to improve its procedures
                        and/or processes for supporting salary allocations, charging
                        fringe benefits, recovering indirect costs, accounting for
                        property, and tracking county election expenditures. In
                        addition, we determined that the State complied with HAVA
                        requirements for the election fund and for appropriating
                        sufficient state funds to qualify for its allocation of
                        requirements payments. Finally, we noted that improvements
                        were also needed to document that counties, which according
                        to the State Plan bear the “bulk of fiscal responsibilities” for
                        elections, were spending an amount for elections at least equal
                        to the amounts spent in fiscal year 2000. In its response to the
                        report, New Jersey agreed with the findings and indicated that
                        corrective action had already taken place or was underway.




                                         3
                        The report also presented information on the New Jersey
                        voter outreach efforts pertaining to two Hip-Hop events that
                        were funded with $131,924 of HAVA Title I funds. The New
                        Jersey “Be Powerful, Be Heard” voter outreach and education
                        initiative included two hip-hop summits primarily for high
                        school and college students. The EAC is in the process of
                        determining whether paying for the summits was an
                        appropriate use of HAVA funds.


Other Activities        The IG Act requires reporting on other categories. We are
                        reporting no actions in the following categories:

                           •   Reviews of Legislation, Rules, Regulations and Other
                               Issuances

                           •   Investigations

                           •   Recommendations in Previous Reports on which
                               Corrective Action has not been Implemented

                           •   Matters Referred to Prosecuting Authorities

                           •   Denial of Access to Records

                           •   Significant Revised Management Decisions Made
                               During the Period

                           •   Significant Management Decisions with Which the
                               Inspector General Disagrees

Significant Report Issued in Prior Period For
Which Management Decision Made this Period

                        We issued an audit of the expenditure of HAVA funds by the
                        California Office of the Secretary of State (Office) on
                        December 10, 2005. EAC requested the audit to follow up on
                        a prior audit by the California Bureau of State Audits that
                        identified questionable uses of HAVA funds by the Office.

Audit of California’s   The objective of the audit was to (1) identify those
use of HAVA funds       transactions in which funding was used for an unallowable
questioned $3,860,361   purpose or without required documentation or support and (2)
                        estimate the total amount of money, if any, that the Office



                                        4
spent on unallowable purposes or that was not supported by
required documentation. The audit identified questioned costs
of $3,860,361 as summarized below:

   •   The expenditures ($777,502) did not conform to
       federal costs principles. For example, the Office used
       HAVA funds for salaries and benefits applicable to
       non HAVA-related activities, unreasonable postage
       costs, improper promotional items and memorabilia,
       and costs outside of contract terms.

   •   The expenditures ($3,082,859) lacked supporting
       documentation required by federal and California state
       requirements. This consisted principally of charges for
       personnel costs that were not substantiated by
       employee activity reports or certifications and the
       costs of consultant contracts that were awarded
       without adequate competition.

In a May 12, 2006 letter to the California Secretary of State,
EAC sustained $3,021,114 of the questioned costs and
reinstated $839,247.




                 5
                                                           APPENDIX A

Reports Issued

Internal Reports   None




External Reports   1. Review of the Administration of Payments Received
                      Under the Help America Vote Act by the Georgia
                      Secretary of State, Report No. E-HP-GA-05-06, July 2006

                   2. Review of the Administration of Payments Received
                      Under the Help America Vote Act by the New Jersey
                      Department of Law and Public Safety, Report No. E-HP-
                      NJ-04-06, September 2006




State Audit        1. Single audit Report of the Commonwealth of Virginia
Reports Referred      for the Fiscal Year Ended June 30, 2005, Assignment
                      No. E-SA-VA-50-06, April 2006
to EAC for
Action             2. Minnesota Financial and Compliance Reports on
                      Federally Assisted Programs for the Year Ended June
                      30, 2005, Assignment No. E-SA-MN-26-06, May 2006

                   3. State of California Internal Control and State and
                      Federal Compliance Audit Report for the Fiscal Year
                      Ended June 30, 2005, Assignment No. E-SA-CA-06-
                      06, May 2006

                   4. State of South Carolina Single Audit for the Year
                      Ended June 30, 2005, Assignment No. E-SA-SC-44-06,
                      June 2006

                   5. State of Florida Auditor General Audit of the
                      Department of State Help America Vote Act and the
                      Florida Registration System, Assignment No. E-SA-
                      FL-11-06, September 2006




                                  6
                                                                     APPENDIX B

Reports With Questioned Costs*

                                                        Questioned     Unsupported
          Category                   Number               Costs           Costs

A. For which no
management decision had
been made by the beginning
of the reporting period.                 1              $3,860,361      $3,082,859

B. Which were issued during
the reporting period.                    2                       0               0


Subtotals (A+B)                          3               3,860,361        3,082,859


C. For which a management
decision was made during the
reporting period.                        1               3,860,361        3,082,859

  (i) Dollar value of
recommendations that were
agreed to by management.                                 3,021,114        2,243,612

  (ii) Dollar value of
recommendations that were not
agreed to by management.                                   839,247         839,247


D. For which no management
decision has been made by the
end of the reporting period.             2                       0               0

E. Reports for which no
management decision was made
within six months of issuance.           0                       0               0


* Unsupported costs are included in questioned costs.




                                             7
                                                                        APPENDIX C
Reporting Requirements of the IG Act

 Section of Act                           Requirement                           Page

Section 4(a) (2)    Review of Legislation and Regulations                       None

Section 5(a) (1)    Significant Problems, Abuses, and Deficiencies              None

Section 5(a) (2)    Recommendations for Corrective Action With Respect to       None
                    Significant Problems, Abuses, and Deficiencies

Section 5(a) (3)    Significant Recommendations From Agency’s Previous          None
                    Report on Which Corrective Action Has Not Been
                    Completed

Section 5(a) (4)    Matters Referred to Prosecutive Authorities and Resulting   None
                    Convictions

Section 5(a) (5)    Matters Reported to the Head of the Agency                  None

Section 5(a) (6)    List of Audit Reports Issued During the Reporting Period      6

Section 5(a) (7)    Summary of Significant Reports                                3

Section 5(a) (8)    Statistical Table – Questioned Costs                          7

Section 5(a) (9)    Statistical Table – Recommendations That Funds Be Put to    None
                    Better Use

Section 5(a) (10)   Summary of Audit Reports Issued Before the                  None
                    Commencement of the Reporting Period for Which No
                    Management Decision Has Been Made

Section 5(a) (11)   Significant Revised Management Decisions Made During        None
                    the Reporting Period

Section 5(a) (12)   Significant Management Decisions With Which the             None
                    Inspector General Is in Disagreement

Section 5(a) (13)   Information Described Under Section 05(b) of the Federal    None
                    Financial Management Improvement Act of 1996




                                             8
                                                                       APPENDIX D
Duties of the EAC

HAVA requires the EAC to:

   •   Generate technical guidance on the administration of federal elections.

   •   Produce voluntary voting systems guidelines.

   •   Research and report on matters that affect the administration of federal
       elections.

   •   Otherwise provide information and guidance with respect to laws, procedures,
       and technologies affecting the administration of Federal elections.

   •   Administer payments to States to meet HAVA requirements.

   •   Provide grants for election technology development and for pilot programs to
       test election technology.

   •   Manage funds targeted to certain programs designed to encourage youth
       participation in elections.

   •   Develop a national program for the testing, certification, and decertification of
       voting systems.

   •   Maintain the national mail voter registration form that was developed in
       accordance with the National Voter Registration Act of 1993 (NVRA), report
       to Congress every two years on the impact of the NVRA on the administration
       of federal elections, and provide information to States on their responsibilities
       under that law.

   •   Audit persons who received federal funds authorized by HAVA from the
       General Services Administration or the Election Assistance Commission.

   •   Submit an annual report to Congress describing EAC activities for the previous
       fiscal year.




                                             9
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
